Additional Information


The Department of Defense Office of the Deputy Inspector General for Intelligence and
Special Program Assessments prepared this report. If you have questions, please contact
the signer of the report.



                                 To report mud. waste, mismanagement, and abuse of authority.

                                 Send written complaints to: Defense Hotline. The PentagOn. Washilgton, DC
                                 Phone: 800.424.9098 e-roait                        www.dodig.sniVhotline




Acronyms and Abbreviations
ADM                          Admiral
ASD(PA)                      Assistant Secretary of Defense for Public Affairs
CIA                          Central Intelligence Agency
DASD(PA)                     Deputy Assistant Secretary of Defense for Public Affairs
DCG                          Deputy Commanding General
DoD                          Department of Defense
DoDD                         Department of Defense Directive
DoDI                         Department of Defense Instruction
EOP                          Executive Office of the President
GEN                          General
OASD(PA)                     Office of the Assistant Secretary of Defense for Public
                             Affairs
ODIG-ISPA                    Office of the Deputy Inspector General for Intelligence and
                               Special Program Assessments
OUSD(I)                      Office of the Under Secretary of Defense for Intelligence
OSR                          Office of Security Review
PAO                          Public Affairs Officer
RADM                         Rear Admiral
TIPs                         Tactics, Techniques, and Procedures
UBL                          Usama bin Laden
u.s.c.                       United States Code
USD(I)                       Under Secretary of Defense for Intelligence
USSOCOM                      United States Special Operations Command
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500



                                                                            JUN 14 2013

MEMORANDUM FOR: DEPUTY SECRETARY OF DEFENSE
                          UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
                          ASSISTANT SECRETARY OF DEFENSE FOR PUBLIC
                            AFFAIRS
                          COMMANDER, UNITED STATES SPECIAL OPERATIONS
                            COMMAND
                          DIRECTOR, THE JOINT STAFF



SUBJECT: Congressionally Requested Action on Released Department of Defense
               Information to the Media (Report No. DODIG-2013-092)


       We are providing this report for your information and use. This report is in
response to the House Committee on Homeland Security Chairman's letter dated August
9, 2011, addressed to the DoD Inspector General expressing "concern regarding ongoing
leaks of classified information regarding sensitive military operations."


       Specifically, the letter expressed concern that makers of a film about the operation
leading to the death of Usama bin Laden received "top-level access to the most classified
mission in history." The Office of the Deputy Inspector General for Intelligence and
Special Program Assessments (ODIG-ISPA) conducted an inquiry of the concerns
addressed in the letter. The results are provided herein.


       Questions regarding this matter, please contact me at (703 882-4860.




                                              <Ll:let;nspector
                                                      H:ttl11  General
                                                   for Intelligence and Special
                                                   Program Assessments
cc:

OFFICE OF THE SECRETARY OF DEFENSE
Under Secretary Of Defense for Policy
Assistant to The Secretary Of Defense For Intelligence Oversight



CONGRESSIONAL COMMITTEES AND SUBCOMMITTEES, CHAIRMAN
 AND RANKING MINORITY MEMBER
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Select Committee on Intelligence
 Senate Committee on Homeland Security and Governmental Affairs
 House Committee on Armed Services
 House Permanent Select Committee on Intelligence
 House Committee on Homeland Security
 House Committee on Oversight and Government Reform
 House Subcommittee on National Security, Homeland Defense and Foreign Operations,
      Committee on Oversight and Government Reform
Introduction

         Background

Congressional Request

In a letter dated August 9, 2011, the Honorable Peter King, Chairman of the Committee
on Homeland Security, U.S. House of Representatives, cited concerns involving
"ongoing leaks of classified information regarding sensitive military operations."
Chairman King referenced an August 6, 2011, New York Times op-ed column that claims,
"Administration officials may have provided filmmakers with details of the raid that
successfully killed Usama Bin Laden (UBL)." According to this article, filmmakers
Kathryn Bigelow and Mark Boal received "top-level access to the most classified mission
in history." Chairman King requested that Department of Defense (DoD) and Central
Intelligence Agency (CIA) Inspectors General explore related matters and respond to the
following questions: 1


         •   "What consultations, if any, occurred between members of the Executive
             Office of the President, and Department of Defense and/or CIA officials,
             regarding the advisability of providing Hollywood executives with access to
             covert military operators and clandestine CIA officers to discuss the UBL
             raid?"


         •   "Will a copy of this film be submitted to the military and CIA for pre­
             publication review, to determine if special operations tactics, techniques and
             procedures, or Agency intelligence sources and methods, would be revealed
             by its release?"


         •   "How was the attendance of filmmakers at a meeting with special operators
             and Agency officers at CIA Headquarters balanced against those officers'
             duties to maintain their covers? How will cover concerns be addressed going
             forward?"


         •   "What steps did the Administration take to ensure that no special operations
             tactics, techniques, and procedures were compromised during those meetings?"




1 Our project did not address a fifth question that pertains exclusively to the CIA: "To the extent possible to
detennine, how many human intelligence sources and how many Agency intelligence methods have been
compromised due to leaks about the May     151 raid? What effects have these compromises had on the CIA's
collection capabilities? Will Agency participation in a film about the bin Laden raid add to or exacerbate
the effects of these compromises?"



                                               Page 1 of 14
    Filmmakers' Interest in the UBL Raid

On May 1, 2011, the President of the United States of America announced that the United
States conducted an operation that resulted in UBL's death. On May 2, 2011, senior
administration officials held a press briefing. That same day, Mr. Boal contacted DoD
officials concerning a film he was producing that focused on the Government's efforts to
track UBL. The prospective film chronicled UBL's escape in Tora Bora, Afghanistan.
Subsequent to the White House's announcement, the filmmakers decided to revise their
project's scope and sought additional information from DoD and CIA regarding the UBL
raid.



            Scope & Methodology

This report responds to specific questions posed by Chairman King. In conducting this
project, we focused exclusively on DoD equities and interests. Additionally, we reviewed
applicable laws, regulations, DoD Directives and Instructions; reviewed and analyzed
                                                                                  2
numerous documents and emails obtained from DoD components; and interviewed
numerous personnel from DoD components.


Certain matters identified in conjunction with our review were referred to other DoD IG
components and/or government agencies for analysis and action deemed appropriate.
Information related to these referrals has been excluded from this report to avoid the
possibility of materially prejudicing on-going reviews and investigations.


We have initiated a follow-on review that will address various policy and procedural
matters identified throughout the course of this inquiry, to include DoD interaction with
media when the subject concerns DoD sensitive and/or classified information or
programs. The results of our follow-on review will be documented via a second report.


            Criteria

DoD Instruction 5410.16, "DoD Assistance to Non-Government, Entertainment-Oriented
Motion Picture, Television, and Video Productions," dated January 26, 1988, provides
guidelines regarding entertainment-oriented productions that seek Department assistance
when producing films or documentaries.


DoD Instruction 5230.29 "Security and Policy Review of DoD Information for Public
Release," dated January 8, 2009, references a security classification review process
designed to ensure officially-released information is not classified.


DoD Instruction 5410.16 states, "Assistant Secretary of Defense for Public Affairs
(ASD(PA)) is the sole authority for approving DoD assistance to non-Government
motion picture, television, and video productions."


2   Interviews are referenced throughout this report as testimony. Interviews were not conducted under oath.



                                                Page 2 of 14
DoD Instruction 5410.16 identifies that non-Government motion picture, television, and
video productions receive official DoD support "when cooperation of the producers with
the Government results in benefitting the Department of Defense or when this would be
in the best national interest, based on consideration of the following factors:


•   The production must be authentic in its portrayal of actual persons, places, military
    operations, and historical events. Fictional portrayals must depict a feasible
    interpretation of military life, operations, and policies.


•   The production is of informational value and considered to be in the best interest of
    public understanding of the U.S. Armed Forces and DoD.


•   The production may provide services to the general public relating to, or enhancing,
    the U.S. Armed Forces recruiting and retention programs.


•   The production should not appear to condone or endorse activities by private citizens
    or organizations when such activities are contrary to U.S. Government policy."


Prior to ASD(PA) receiving an official request for support, DoD Components are
authorized to assist non-Government producers or scriptwriters in their efforts to develop
a script that might ultimately qualify for DoD assistance. Authorized activities prior to
the official request for support include providing guidance, suggestions, or access for
purposes of technical research. DoD components providing such assistance are required
to coordinate withOffice of the Assistant Secretary of Defense for Public Affairs
(OASD(PA)).


According to DoD Instruction 5410.16, official requests for support require production
companies to submit copies of their script for ASD(PA) review and approval. DoD
supported productions are required to arrange for an official DoD screening prior to
public release. Preferably, this review should take place before composite printing to
ensure ample time is available to make necessary changes.


DoD Instruction 5230.29 requires Washington Headquarters Services' Office of Security
Review (OSR) to conduct a classification and policy review of DoD information to be
released publicly. While not specifically required, production scripts could be reviewed
byOSR.




                                         Page 3 of 14
INQUIRY RESULTS

           Question 1: "What consultations, if any, occurred between members of the
           Executive Office of the President and the Department of Defense ...
           regarding the advisability of providing Hollywood executives with access to
           covert military operators ...to discuss the UBL raid?"


Summary:


Our review did not identify consultations between DoD personnel and representatives
from the Executive Office of the President (EOP) regarding the advisability of providing
filmmakers with access to military special operators. The EOP, however, did
communicate with the DoD regarding providing the filmmakers interviews with Under
Secretary of Defense for Intelligence (USD(I)) Michael G. Vickers. We identified
internal DoD communications in which various Department representatives discussed the
extent to which DoD should support the filmmakers. DoD representatives also discussed
whether the filmmakers should be provided access to military special operators. It was
ultimately determined that a special operations planner would speak to filmmakers on
background. Our review revealed attempts to set up a meeting between the planner and
filmmakers; however, based on information obtained,no meeting took place.


Discussion:


The following timeline summarizes relevant interactions between DoD officials, EOP
staff, and filmmakers:


On May 2, 2011, Mr. Boal emailed Deputy Assistant Secretary of Defense for Public
Affairs (DASD(PA)) Geoff Morrell. Mr. Boal requested contact information for United
States Special Operations Command's (USSOCOM's) public affairs officer (PAO).
                                           3
A representative from the Glover Park Group of Washington, D.C., was courtesy copied.


On May 3, 2011, Ms. Bigelow contacted a representative from the OASD(PA) regarding                              ·


                           4
the Wounded Warrior Project. Ms. Bigelow mentioned that she would be traveling to
Washington, D.C. in late May and suggested they meet.


On May 23, 2011, Mr. Boal emailed Assistant Secretary of Defense for Public Affairs
(ASD(PA)) Douglas Wilson and DASD(PA) Morrell. Mr. Boal thanked ASD(PA)
Wilson and DASD(PA) Morrell for arranging a May 19, 2011, meeting between the
filmmakers and government representatives. Mr. Boal indicated that the government


3   According to its website, Glover Park Group is a strategic communications firm. The website states,
"GPG was built to help organizations navigate this shifting landscape. We combine substantive
understanding of complex issues with disciplined execution of crisp influence campaigns that shape the
way critical audiences view our clients and their goals."


4   The Wounded Warrior Proj ect was established to raise awareness and enlist the public's aid for the needs
of injured service members.



                                                 Page 4 of 14
representatives suggested filmmakers speak with USD(I) Vickers and Rear Admiral
(RADM) Dennis Moynihan, former Chief oflnformation, U.S. Navy. It was also
suggested that the filmmakers should contact the USSOCOM PAO. In this email,
Mr. Boal states that ASD(PA) Wilson had previously offered to contact Admiral (ADM)
Eric T. Olson, former Commander of USSOCOM, to "check on his willingness to talk
after he leaves the military," and to introduce Mr. Boal to journalists Mr. Mark Ambinder
and Ms. Kim Dozier.

On May 25, 2011, ASD(PA) Wilson sent an email to his assistant and agreed to
personally call Ms. Dozier and Mr. Ambinder to help Mr. Boal, but that he was going to
hold off connecting Mr. Boal with USD(I) Vickers and ADM Olson.


On June 5, 2011, Mr. Boal emailed DASD(PA) Morrell. Mr. Boa! wrote that he recently
saw General (GEN) Peter W. Chiarelli, former U.S. Army Vice Chief of Staff, at dinner,
GEN Chiarelli reportedly suggested that Mr. Boal meet with USD(I) Vickers. Later that
evening, Mr. Boal sent another email to DASD(P A) Morrell and requested an interview
with USD(I) Vickers to discuss the scope of the prospective film.


On June9, 2011, Mr. Boal met with USD(I) Vickers in his Pentagon office. Mr. Boal
provided USD(l) Vickers a background brief on his movie project, the timeline of the
project, and possible project scope. An OASD(PA) desk officer summarized this meeting
                                       5
in an email to individuals in the EOP, the Office of the Director of National Intelligence
(ODNI), CIA, USSOCOM, and OASD(PA). The summary noted that Mr. Boa! had not
yet requested formal DoD support.

On June9, 2011, Mr. Boal emailed ASD(PA) Wilson and thanked him for sponsoring the
meeting with USD(I) Vickers.


On June 10, 2011, ADM Olson forwarded an email to USD(I) Vickers that he
[ADM Olson] received from USSOCOM's PAO. The USSOCOM PAO indicated that
the DoD Director of Entertainment Media was not inclined to support Mr. Boal and Ms.
                   6
Bigelow's project.


On June 10, 2011, USD(I) Vickers contacted ADM William H. McRaven, current
USSOCOM Commander, regarding DoD interest in supporting the UBL movie.
ADM McRaven told USD(I) Vickers that he did not want to be involved in the project
given his impending assignment as USSOCOM commander; however, if DoD offered


5   According to the OASD(PA) desk officer, the White House National Security Staff always provides
guidance on projects involving interagency coordination; thus, this meeting summary was distributed to
those individuals for interagency coordination.

6 DoD's Director of Entertainment Media informed us that he was not pleased with the way the military
was portrayed in Mr. Boa! and Ms. Bigelow's film, "Hurt Locker" and he was not eager to deal with the
filmmakers; however, he was willing to review a script. The director stated, "No, I would not have
recommended [a meeting with USD(I) Vickers]. ff SOCOM had said, 'We are not interested in this picture
at all,' then there wouldn't be any point in having any meetings." The statement was preceded by, "I wasn't
given the choice of whether to authorize it or not. I mean, these senior people do whatever they want."



                                              Page 5 of14
formal support for the project, he may be able to identify a special operations planner
who could provide background information.


On June 13, 2011, USD(I) Vickers sent an email to ASD(PA) Wilson. USD(I) Vickers
stated that he had contacted Deputy Director of the CIA Michael Morrell on
June 10, 2011. USD(I) Vickers stated, "at the direction of Director Panetta, CIA is
cooperating fully" and that "several CIA staff have talked to Mark [Boal], for the
intelligence case, they are basically using the White House-approved talking points used
the night of the operation." In response, ASD(PA) Wilson wrote, "[W] e need to be
careful here so we don't open the media floodgates on this. I'm going to check with WH
to update them on status, and will report back."


On June 14, 2011, Mr. Boal sent an email to the OASD(PA) desk officer. Mr. Boal
inquired about the possibility of additional meetings with USD(I) Vickers. Mr. Boal
mentioned that he was also coordinating with the White House, but he did not identify a
point of contact.


On June 14,2011, ASD(PA) Wilson sent an email to Mr. Boal in which he stated, "If you
have any problems with [the DoD's Director of Entertainment Media] on any of this,
             7
come to me." In a separate email on that same day, ASD(PA) Wilson informed the
OASD(PA) desk officer that he approved a second meeting between USD(I) Vickers and
                                                                     8
Mr. Boal, but was awaiting additional guidance fr()m the White House.


On June 1 5, 2011, ASD(PA) Wilson emailed Mr. Boal and inquired about his travel
schedule. ASD(PA) Wilson indicated that he wanted to escort Mr. Boal to the White
House. In response, Mr. Boal informed ASD(PA) Wilson he would be in Washington,
D.C., from June 20 through June 21, and June 27 through July 1 .


On June 1 5, 201 1,a member of the White House National Security Staff, the White
House Deputy Press Secretary, as well as ASD(PA) Wilson exchanged multiple emails in
which ASD(PA) Wilson coordinated a meeting between Mr. Boal and the White House.


On June 20, 2011, the DoD Director of Entertainment Media emailed a summary of a
conversation he had with Mr. Boal, to personnel within the OASD(PA), which eventually
reached ASD(PA ) Wilson.



                 "I just heard from Mark Boal. He explained what had
                 already been in the trade press, that he'd been working on a


7 ASD(PA) Wilson testified that "[Mr. Boat and Ms. Bigelow's] previous experience with the [DoD

Director of Entertainment Media] had been mixed and I wanted [Mr. Boat and Ms. Bigelow] to know, look,
you know, if you're-- if you're having problems getting answers or things like that, Jet me know and, you
know, we're not going to put walls up here."


8 In testimony, ASD(PA) Wilson stated, "The guidance from the White House is how do you deal with
these people. In terms ofthe content of what is told to them, that's Vickers. You would have to ask
Vickers and the people who actually talked to them about the events."



                                              Page 6 of 14
              Tora Bora script when the Bin Laden operation took place,
              and now they've switched to that story. He mentioned the
              interviews here and at CIA, and hoped I would be in on
              these (at least at DoD) in the future. He said he hoped to
              complete the script this summer, and was still wondering
              about potential filming locations. The picture is expected
              to have a 4th quarter 2012 release. They are fmancing
              independently with Sony doing the distribution. He agreed
              to keep me up to date with his research efforts. Of course
              at some point he hopes to interview SEALs,and whether
              ADM Olson would be amenable to this kind of research
              remains to be seen.'"




On June 21,2011, ASD(PA) Wilson responded to the DoD's Director of Entertainment
Media email on June 20, 2011 with, "excellent, many thanks. What's your take on this?
In my brief encounters with him so far,it sounds solid. FYI, Director Panetta has been
very supportive of this over at CIA. ..." On the same day, the DoD Director of
Entertainment responded to ASD(P A) Wilson, writing:



              "Well, we had a good conversation -- about the script, the
              research, and some logistical and geographical
              considerations, and you know that we tend to withhold
              judgment until reading a shooting script and attempting
              negotiations. But with all the special forces-oriented
              projects there's the problem of persuading the community
              to provide enough information and production support to
              convey our version of events with some realism,while
              avoiding the disclosure of things we don't want out
              there... Usually, SOCOM's response is "We're not going
              to get involved at all.""



In a June 21,2011, email, DoD's Director of Entertainment Media wrote to the
USSOCOM PAO and OASD(PA) representatives that Mr. Boal hoped to "interview
SEALS,and whether SOCOM would be amenable to this kind of research remains to be
seen."


On June 21,2011, the USSOCOM PAO sent an email to the DoD Director of
Entertainment Media and the OASD(PA) desk officer,stating that USSOCOM' s position
was "that there was already too much information released concerning the bin Laden raid
and has obvious concerns about DoD providing any support for this effort." Another




                                          Page 7 of 14
OASD(PA) desk officer responded to this email by arranging a meeting with the
USSOCOM PAO set to take place on June 24,2011 to discuss the UBL movie.9


On June 22,2011, an internal OASD(P A) communication references a meeting to be
scheduled at the White House between ASD(P A) Wilson and the White House Deputy
Press Secretary. ASD(PA) Wilson writes, "We've got the green light to proceed" and
"the White House does want to engage with Mark [Mr. Boal] but it probably won't be for
a few more weeks."


On June 27,2011, a member of the National Security Staff sent an email to an OUSD(I)
representative. According to the National Security Staff member, Mr. Boal would
contact OUSD(I) and request an interview with USD(I) Vickers. Additionally,on this
day, an OASD(PA) desk officer contacted Mr. Boal to find a day for Mr. Boal to
interview USD(I) Vickers.


On July 7,2011, Mr. Boal emailed the OASD(PA) desk officer to identify the dates he
would be in Washington, D.C. The meeting logistics were coordinated in later e- mails
between a Glover Park Group representative and the OASD(PA) Desk Officer. This
included the question by the Glover Park Group representative, "Are you the appropriate
person to give their security clearance information to? I also have the information for the
car and driver that will be bringing them to the Pentagon and assume I need to provide
               10
that as well."


On July 12,2011, Mr. Boal emailed ASD(PA) Wilson to arrange a meeting on July 19,
2011. The stated purpose was to update ASD(PA) Wilson on the status of the film and
additionally set-up a separate time to meet for a drink.


On July 13,2011, ASD(PA) Wilson sent a calendar invite to Mr. Boal and Ms. Bigelow
in response to Mr. Boal's July 12, 2011 email. ASD(PA) Wilson additionally wrote to
Mr. Boal, "Jeremy Bash (Special Assistant to the Secretary of Defense] and I talked
                                                                          11
yesterday,and he and I will work to unclog the SOCOM pathway for you."



9 The USSOCOM PAO testified, he met with the DoD Director of Entertainment Media. This meeting was
attended by the USSOCOM PAO and personnel from the OASD(PA). The USSOCOM PAO stated his
general response about supporting the project was, "well you can send me something formally, and I can
send you something back formally. But we're not touching this." The USSOCOM PAO further testified,
"(The DoD Director of Entertainment Media) was strongly against [the movie)."

10
   According to a representative of the OUSD(I), this reference is in regards to their parking clearance
information and Pentagon security.

11
     Mr. Bash testified that he did not remember a specific conversation with ASD(PA) Wilson while at the
DoD, but that "it is likely [he) caught [ASD(PA) Wilson] in the hallway and said something like, [he]
talked to those guys and they are serious about portraying the matter accurately, not revealing anything
inappropriate or sensitive." According to ASD(PA) Wilson, while Mr. Bash was at CIA, Mr. Boa!
complained to Mr. Bash that "SOCOM wasn't being as forthcoming as they wanted." Mr. Bash testified
that while at DoD he could recall only one meeting with the filmmakers and it was, "to hear about what
their ideas were."




                                                Page 8 of 14
Ms. Bigelow responded to ASD(PA) Wilson's calendar invite to express gratitude.
ASD(PA) Wilson responded to Ms. Bigelow's email writing, "I've talked to Jeremy
[Bash] and to Mike Vickers and we want to make the path easier for you here with the
                                                              12
SOCOM folks, so I'm hoping to have an update on that for you."

On July 14,2011,USD(I) Vickers and ADM Olson exchanged emails, which included
the following statements:



                    USD(I) Vickers: "Doug Wilson (ASD PA) told me
                    yesterday that Secy Panetta wants the Department to
                    cooperate fully with the makers of the UBL movie. Last
                    time we talked, you and [ADM McRaven] had agreed to
                    allow [the special operations planner's initials] to represent
                    you on background. SOF participation would be limited to
                    that. Is that still the case? I have to meet with the producer
                    and director tomorrow and want to know what [to] say."


                    ADM Olson: "Yes, this is still the case. On background is
                    key. His main task is to provide accuracy and context
                   where needed. My (our) hope and intent is that [the special
                   operations planner's initials] not be identified by name as
                    having participated in any way."



On July 15,2011, USD(I) Vickers, the DoD Director of Entertainment Media and an
OASD(PA) desk officer met with Ms. Bigelow and Mr. Boal at the Pentagon. The
OASD(PA) desk officer recorded and transcribed this interview.


On July 16,2011, Mr. Boal emailed the OASD(PA) desk officer in an attempt to obtain
access to the special operations planner. Additionally on July 16, 2011, USD(I) Vickers
and ASD(PA) Wilson engaged in an email conversation in which USD(I) Vickers stated:



                    '"Had a very good meeting with Mark Boal and Kathryn
                    Bigelow last night re: UBL movie. Think they came away
                    very happy. Putting them in touch with VADM M's key
                    planner, which should complete for now their requests of
                    DoD."




12
     USD(I) Vickers testified "one of (Mr. Boal's] requests is to meet with various SOCOM people and   I
know certainly being with operators was going to be dead on arrival, but I told him that I would check with
the commanders and see what if anything, I'm not making you any promises."




                                               Page 9 of 14
Our review revealed attempts to set up a meeting between the planner and filmmakers;
however, based on information obtained, no meeting took place.


On July 20, 2011, ASD(P A) Wilson emailed Mr. Boal and Ms. Bigelow and stated:



                    "Great to see you last night, and sorry I had to bolt at the
                                                                                13
                    end. Copying [Pentagon Press Secretary] George Little,
                                                                          14
                    he will facilitate your visit to the Virginia facility we
                     discussed, it looks like that can happen. Thanks so much
                     for the hospitality, and we all look forward to seeing you
                     again and to working with you."



On July 20, 2011, in a separate email Mr. Boal thanked Mr. Little "for pulling for [him
and Ms. Bigelow] at the agency. It made all the difference." Mr. Little responded by
telling Mr. Boal that DoD and CIA "are excited about the project. It's been a real
pleasure to help facilitate things." As a postscript, Mr. Little wrote, "I want you to note
how good I've been about not mentioning the premiere tickets.                   :-)."15

On July 23, 2011, the special operations planner emailed the OUSD(I) representative.
The planner indicated that he had spoken to ADM McRaven about the project.


On August 17, 2011, the special operations planner emailed the OASD(P A) desk officer.
The planner informed the desk officer that he had spoken to USD(I) Vickers.
The planner expressed a desire to meet with the desk officer prior to meeting with
filmmakers. The desk officer responded,"I think we have a little time." The desk officer
commented on press stories that suggested the White House, DoD and CIA provided
special access and classified information to the filmmakers. The desk officer denied that
                                                                             16
this had occurred, and stated, "We may want to let the dust settle a little."




13   Mr. Little joined the Department in July 20 I I as Deputy Assistant Secretary of Defense for Public
Affairs and took on the duties ofASD(PA) when ASD(PA) Wilson left the DoD. Prior to that, Mr. Little
was Director of Public Afa f irs at the CIA.

14   Mr. Little testified he thought the Virginia facility was a location of a DoD unit. We contacted that
facility and confirmed neither Mr. Boat nor Ms. Bigelow visited the facility.


15   Mr. Little testified this reference was "a joke that [he has] made with plenty of entertainment producers"
and that he has never received anything from Mr. Boa! or Ms. Bigelow.


16   The Honorable Chairman Peter King's letter to the DoD and CIA lG's was dated August 9, 20 I I .




                                                 Page 10 of 14
         Question 2: "Will a copy of this film be submitted to the military               .   .   •   for pre­
         publication review, to determine if special operations tactics, techniques and
         procedures ... would be revealed by its release?"


 Summary:


DoD officials informed us they did not expect filmmakers to offer DoD the opportunity
to engage in a pre-release review of the film script. The Department does not require
non-government, entertainment-oriented motion picture, television, and video
productions ("productions") to submit scripts or films for review unless the production
company formally requested DoD support. According to these officials, Mr. Boal and
Ms. Bigelow never formally requested DoD support.


Discussion


During an interview, ASD(PA) Wilson confirmed that his office is the focal point for
                                            17
interaction with the entertainment industry. He also told us that his office is "pretty
open to just about anybody who wants to come and ask about research for a project." He
explained the difference between research and support:



                 "So people can and do come here to ask for assistance in
                 their initial research phase of the project and, by and large,
                 we're very open and helpful to them. Depending on what
                 the topic is,it can involve -- can be limited to our office. It
                 can -- more often, it's beyond our office, involving other
                 offices,and sometimes it involves other agencies.
                 * * *



                 There is a difference between the research phase and the
                 actual support phase and I'll give you an example. The
                 Hurt Locker, which was directed by Kathryn Bigelow
                  ... her partner Mark Boal, came to the Department in the
                 research phase of [The Hurt Locker] and so they did that ...
                 but I believe they began initially in the support phase, as
                 well. They -- they were going to support,but they reached
                 a point in the script and in the filming where ... the
                 Department felt they could no longer support the film, you
                 know, as an official Department entity, so they did not. So
                 there is a difference between the two phases."




17 DoD Instruction 5410.16 states, "ASD(PA) is the sole authority for approving DoD assistance to non­

Government motion picture, television, and video productions."




                                            Page 11 of 14
As previously identified only official requests for support require production companies
to submit copies of their script for ASD(PA) review and approval. During post­
production, the production company must arrange for an official DoD screening prior to
public release.


Additionally, DoD's Director of Entertainment Media testified that DoD involvement in
the research and/or development phase of a production does not necessarily prompt a
classification review.


On October 20, 2011,multiple emails that indicated phone calls were exchanged between
ASD(PA) Wilson, DoD's Director of Entertainment Media and Mr. Boal. These
conversations were concerning the review of a script; however, DoD's Director of
Entertainment Media informed us he never received a script. On February 21, 2012,the
DoD Director of Entertainment Media contacted Mr. Boal regarding the project, but
Mr. Boal said he was not shooting yet.



        Question 3: "How was the attendance of filmmakers at a meeting with
        special operators and Agency officers at CIA Headquarters balanced against
        those officers' duties to maintain their covers? How will cover concerns be
        addressed going fonvard?"


Summary


Our review revealed that DoD special operators attended a June 24, 2011, CIA
Headquarters awards ceremony that recognized individuals involved in the UBL raid.
We were informed that the special operators present at the ceremony were not in a cover
status. According to testimony from ADM McRaven,Mr. Boal attended this event. We
were unable to identify any precautionary measures that were taken to protect the identity
of operators that attended this event. This is the only event we identified that was
attended by special operators and either of the filmmakers.


Discussion


According to DoD Directive S-5105.61, "DoD Cover and Cover Support Activities,"
dated May 6, 2010, cover is a protective guise used by a person, organization, or
installation to conceal true affiliation with clandestine or other sensitive activities. DoD
cover may be used to protect the Department of Defense, its intelligence sources and
methods, and its clandestine tactics, techniques, and procedures, from exposure to the
enemy and overt association with sensitive activities.


According to testimony from senior officials, Mr. Boal was present at a CIA
Headquarters awards ceremony. Special operators involved with the UBL raid also
attended this awards ceremony. We were told by the special operators' chain of
command that the special operators were not in cover status at the time of this event.
However, ADM McRaven and the former USSOCOM Chief of Staff informed us that the




                                       Page 12 of 14
protection of names of the special operators associated with the UBL mission was a top
priority.


        CIA Headquarters Awards Ceremony


On June 24, 2011 , the CIA held an awards ceremony at CIA Headquarters, Langley, VA.
Two to four days prior to this awards ceremony, a CIA P AO contacted a DoD PAO and
notified him that a filmmaker (later identified as Mr. Boal) might attend the event.
According to the DoD PAO, the CIA PAO hoped to prevent Mr. Boal from attending.
The DoD PAO did not inform his superiors or the special operators who were scheduled
to attend the ceremony that a filmmaker might attend. The DoD PAO indicated that he
did not forward this information to his commander because he hoped that the CIA PAO
would be able to prohibit the filmmaker from attending.


According to the DoD PAO, the day of the event, the CIA PAO contacted him and
indicated that it had been determined that the filmmaker would be allowed to attend the
event. The DoD PAO was unable to communicate this fact to DoD personnel attending
the ceremony.


According to the Deputy Commanding General (DCG) of the relevant combatant
command, special operators believed that only a few individuals would attend the event;
however, our review determined that the event was heavily attended. The DCG also told
us, special operators "were actually in uniform, with nametapes, because it was a formal
ceremony. [They] were in the front row, front, left side, prominently on display for
everybody."


One senior official who attended the event described it as "a huge enormous crowd, I
mean they built a tent and it was not a sensitive, I would say it was not a highly sensitive
event. It was pretty much a cattle call for a lot of folks and for around the community
and obviously not open to the public per se." We also determined that the event was
broadcast on CIA's closed circuit television and a video depicting the event was
accessible via the CIA's classified network.


ADM McRaven testified that at the end of the ceremony, "somebody brought somebody
up to me and said this is Mr. so- in-so he's the same guy who did the Hurt Locker and of
course I was admittedly a little surprised." The DCG of the relevant combatant command
testified that when he and his subordinates were told the producers of the "Hurt Locker"
were present they, "all tried, you know, to get as much distance as possible, to include
ADM McRaven. Urn, this was the first time he was made aware of it as well and he was
pretty, he was visibly, surprised and shocked."


        Force Protection and Operation Security Support


During this inquiry, ADM McRaven referenced concerns regarding the possible release
of names of personnel associated with the UBL operation.




                                       Page 13 of 1 4
According to ADM McRaven, DoD provided the operators and their families an
inordinate level of security. ADM McRaven stated that he previously met with operators'
family members. and discussed force protection measures. USSOCOM officials informed
family members that protective monitoring will be initiated, and instructed them to call
security personnel if security-related incidents arise. ADM McRaven also directed
personnel to forego releasing names of operators and photographs associated with the
raid.


Additionally, our review identified other Department actions conducted to support
operational security concerns identified above and further protect the unit that conducted
the raid.


        Question 4: "What steps did the Administration take to ensure that no
        special operations tactics, techniques, and procedures were compromised
        during those meetings?"


Within the DoD, we did not identify instances whereby any special operations tactics,
techniques,and procedures-related information was provided to filmmakers.
ADM McRaven informed us, to protect sensitive information, "if the decision was made
to support the film, then [SOCOM] would provide some technical advice as long as it
didn't compromise any sensitive techniques. "




                                      Page 1 4 of 14
